No.

IN THE
SUPREME COURT OF THE UNITED STATES

Mitchell L. Christen

— PETITIONER

(Your Name)
VS.
State of Wisconsin

— RESPONDENT(S)

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes:
Ed Petitioner has previously been granted leave to proceed in forma pauperis in
the following court(s):
Supreme Court of Wisconsin, Wisconsin Court of Appeals, Circuit Curt of Dane County

Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.
CI Petitioner's affidavit or declaration in support of this motion is attached hereto.
111 Petitioner's affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:
El The appointment was made under the following provision of law.
, or
E a copy of the order of appointment is appended.

STATE OF WISCONSIN

5, Rm. 8B, Chamber 8105

For Official Use

Dane County

STATE OF WISCONSIN
Plaintiff,
V.

18-CM-198

Case No.

Mitchell L Christen
Defendant.

STATE PUBLIC DEFENDER- ORDER APPOINTING COUNSEL
Name:

Mitchell L Christen

DOC #:
Date of Birth:

7/7/1989

SPD Case No:

211302674Z

SPD File No:

2 IP-1 3-A-F02674

Case Group #:

Nature of Case:

941.20(1)(b) Operate/Firearm while Intoxicated
947.01 Disorderly conduct

2362689

1 Cnts:

1 Cnts:

Other Information
Judge:

McNamara, Nicholas

Record Created:

May 11, 2021

Judgment Entered:

November 09, 2018

Type:

Re-Opening: U.S. Supreme Court

In accordance with Chapter 977 of the Wisconsin statutes, I hereby appoint the following attorney to represent the above named
individual in relation to the above entitled proceedings.
Attorney's Name:

Steven Roy

Address:

1310 OKeeffe Ave, #315
Sun Prairie, WI 53590 4359

Attorney Email Address: steveM&stevenroylaw.com
Appointed By:
Joseph N. Ehmann
SPD Office Handling:

Madison

State Bar No:
Attorney Telephone:

1115155
(608) 571-4732

Attorney Fax Number: (443) 935-9694
Date Appointed:
Supervisor ID:
SPD Office Phone:

May 11,2021
1016411
(608) 266 3440

Dated: September 24, 2021

Office of the State Public Defender - Notice to Clients - File Retention Policy
When an attorney represents an individual, s/he makes and keeps a file of the documents and work done on the case. Attorneys on staff with the Office of the State
Public Defender (SPD) create and maintain such files for each case. This notice applies only to cases handled by staff attorneys of the Office of the State Public
Defender. If your case has been assigned to a private attorney, please consult that attorney about his or her file retention policy.
Upon the conclusion of the representation in this case, the SPD will, upon your request, deliver the original file or any portion requested, to you, along with any of
your original documents or other property that the SPD has in its possession.
If you do not request your file, the SPD will retain it for a period of at least five years after the matter is closed. At any point during this period, you may request
delivery of the file. If you do not request the file before the end of the five-year period, the SPD may. in its discretion, destroy the file and its contents without
further notice to you.

